                         !:.,.--   -­




                                                    NATIONAL SCIENCE FOUNDATION 

                                                     OFFICE OF INSPECTOR GENERAL 

                                                       OFFICE OF INVESTIGATIONS 


                                              CLOSEOUT MEMORANDUM

Case Number: 110030008                                                                       Page 1 of 1



                We received an allegation that a contractor l on an NSF award2 made false statements
         regarding his progress, received payment for work he did not complete, and collected data of
         questionable validity. The contractor, in both written and oral statements, affirmed the validity of
         the data but did acknowledge invoicing time and effort for work he had not completed. We
         concluded that the overbilling resulted from miscommunication between the contractor, PI and grant
         administrative personnel, rather than a wrongful theft of grant funds for personal gain

                Based on documentary evidence and his own statements, we determined that the contractor
         received $5,589 as payment for 207 hours he did not work. The contractor repaid the $5,589 to NSF,
         and NSF credited this amount to the awardee institution. 3 Additionally; the contractor returned
         equipment and perip~erals funded under the grant to the awardee institution~

                   Accordingly, this case is closed with no further action taken.                               "j




        , I

         2
         3




NSF OIG Fonn 2 (11102)
